             ACCOUNTING AND DISCLOSING
       INTRAGOVERNMENTAL TRANSACTIONS ON THE
        DOD AGENCY-WIDE FINANCIAL STATEMENTS


Report No. D-2001-042               January 31, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

    To suggest ideas for or to request future audits, contact the Audit Followup and
         Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
            fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                 Defense Finance and Accounting Service
OMB                  Office of Management and Budget
USD (Comptroller)    Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2001-042                                                    January 31, 2001
  (Project No. D2000FI-0063.005)
        Accounting and Disclosing Intragovernmental Transactions
             on the DoD Agency-Wide Financial Statements

                                   Executive Summary

Introduction. This report is the fourth in a series of audit reports related to the FY 1999
DoD Agency-wide financial statements. The first report discusses the internal controls
and compliance with laws and regulations for DoD. The second report discusses the
reporting of performance goal information in the DoD financial statements. The third
report discusses journal voucher entries made to accounting data used to prepare the DoD
financial statements. This report discusses the annual process of accounting and
disclosing of intragovernmental transactions on the DoD Agency-wide financial
statements.

Office of Management and Budget (OMB) Bulletin No. 97-01, “Form and Content of
Agency Financial Statements,” October 16, 1996, as amended January 7, 2000, requires
the balance sheet and Statement of Net Cost to be prepared on a consolidated basis.
When statements are prepared on a consolidated basis, intra-agency transactions must be
eliminated to remove the double accounting effect. Intragovernmental transactions with
other Federal agencies are to be reported as required supplemental information as part of
the agency’s financial statements. The required supplemental information is used to
prepare the Federal consolidating statements. Reporting entities are encouraged to
reconcile intragovernmental amounts with their trading partners.

The DoD Agency-wide balance sheet, the Statement of Net Cost, and the Statement of
Changes in Net Position were prepared on a consolidated basis. When the Defense
Finance and Accounting Service prepares the DoD Agency-wide financial statements on
a consolidated basis, it should eliminate the double accounting effects of financial
transactions among its components. If the double accounting effects are not eliminated,
then the amounts reported in the financial statements would be overstated. In financial
statements for the consolidated entity, the revenues, expenses, assets, and liabilities
should be reported based on transactions with outside parties. The DoD Agency-wide
Statement of Net Cost for FY 1999 identified total program costs of $410.3 billion and
total earned revenue of $32.5 billion for a total net cost-of-operations of $377.8 billion.
In addition, the DoD Agency-wide balance sheet reported total assets of $599 billion and
total liabilities of $999 billion.

Objectives. Our overall audit objective was to determine whether the DoD Agency-wide
financial statements were prepared in accordance with OMB Bulletin No. 97-01, 1996, as
amended January 7, 2000. As part of the objective, we reviewed the preparation of the
DoD Agency-wide financial statements and the accounting and disclosing of
intragovernmental transactions that should be eliminated on the DoD Agency-wide
financial statements or reported as required supplemental information. We also reviewed
the management control program as it related to the overall objective.

Results. Since FY 1996, DoD made little progress in accounting for and disclosing
amounts of eliminating entries. Similarly, the Department has been slow to initiate
improvements that are needed to ensure that all of the intragovernmental transactions
were captured and the amounts were accurate. In response to prior Inspector General,
DoD, audit reports, DoD indicated that it could not perform the critical checks because
many of the DoD accounting systems did not capture all the data necessary to reconcile
with partners or to accurately identify elimination transactions and balances.

The FY 1999 DoD Agency-wide financial statements reflected $229.4 billion in
intragovernmental transactions between buyers and sellers that were not reliable and were
not adequately supported. DoD reported $236.7 billion in eliminating entries that were
not reconciled with intragovernmental accounts and buyer and seller transactions. The
Defense Finance and Accounting Service made $298.8 billion (absolute value) in
accounting entries to intragovernmental and public accounts that were not adequately
reconciled. In addition, the elimination of intra-agency transactions on the Statement of
Net Cost were made to the total program cost and revenue lines and not by the specific
programs that made up the totals. As a result, the DoD Agency-wide financial statements
continue to contain material misstatements, the amounts reported for intragovernmental
line items are unreliable, and unless corrected, will continue to contain material
misstatements for FY 2000 and beyond.

See the Finding section for details on the audit results and Appendix A for details on our
review of the management control program.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) correct abnormal account balances; establish a working group with the
Defense Finance and Accounting Service and the DoD Components to re-execute the
implementation strategy to improve eliminations; modify DoD Regulation 7000.14-R,
“Financial Management Regulation,” to require Defense Finance and Accounting Service
and DoD Components to reconcile buyer side and seller side information and disclose
any unreconciled amounts in the footnotes of the financial statements, and to require that
DoD entities disclose elimination amounts for each program category on the DoD
Agency-wide consolidating Statement of Net Cost; and issue revisions to DoD
Regulation 7000.14-R, “Financial Management Regulation,” in time to prepare the
FY 2000 financial statements.

Management Comments. The Under Secretary of Defense (Comptroller) stated that it
has taken action to implement all the recommendations except for establishing a working
group to re-execute the implementation strategy. Instead the Under Secretary of Defense
(Comptroller) stated that the Defense Finance and Accounting Service was attempting to
identify alternative ways to develop electronic files at the transaction level. See the
Finding section for a discussion of management comments and the Management
Comments section for the complete text.

Audit Response. The Under Secretary of Defense (Comptroller) comments were
responsive in part. We request that the Under Secretary of Defense (Comptroller)
provide additional details on how the alternative ways of developing electronic files at
the transaction level will achieve the goals set forth for the implementation strategy for
eliminations. We request that comments on the final report be provided by April 2, 2001.




                                             ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objectives                                                          3

Finding
     Intragovernmental Transactions                                      4

Appendixes
     A. Audit Process
         Scope                                                          21
         Methodology                                                    22
         Management Control Program Review                              23
         Prior Coverage                                                 24
     B. Laws and Regulations                                            25
     C. Examples of FY 1999 Unreliable Seller Side Information          30
     D. Reconstructed FY 1999 DoD Agency-Wide Consolidating Statement
         of Net Cost                                                    32
     E. Report Distribution                                             34

Management Comments
     Under Secretary of Defense (Comptroller)                           36
Background
    This report is the fourth in a series of audit reports related to the FY 1999 DoD
    Agency-wide financial statements. The first report discusses the internal controls
    and compliance with laws and regulations for DoD. The second report discusses
    the reporting of performance goal information in the DoD financial statements.
    The third report discusses journal voucher entries made to accounting data used to
    prepare the DoD financial statements. This report discusses the annual process of
    accounting for and disclosing intragovernmental transactions on the DoD
    Agency-wide financial statements.

    Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
    Act of 1990,” November 15, 1990, as amended by Public Law 103-356, the
    “Federal Financial Management Act of 1994,” October 13, 1994, requires DoD to
    prepare annual audited financial statements. Office of Management and Budget
    (OMB) Bulletin No. 98-08, “Audit Requirements for Federal Financial
    Statements,” August 24, 1998, as amended January 25, 1999, establishes the
    requirements for audits of Federal financial statements.

            Accounting Functions and Responsibilities. The Under Secretary of
    Defense (Comptroller) (USD [Comptroller]), as the Chief Financial Officer, is
    responsible for overseeing all financial management activities related to the
    programs and operations of DoD. As such, the USD (Comptroller) is responsible
    for compliance with laws and regulations applicable to the DoD Agency-wide
    financial statements. The compliance includes whether those financial statements
    are prepared in accordance with Federal accounting standards and other reporting
    guidance.

    The Defense Finance and Accounting Service (DFAS) performs accounting
    functions and prepares financial statements for DoD. DFAS operates under the
    control and direction of the USD (Comptroller). DFAS is responsible for entering
    information from DoD entities into finance and accounting systems, operating and
    maintaining the finance and accounting systems, and ensuring the continued
    integrity of the information entered. The DoD reporting entities are responsible
    for providing accurate financial information to DFAS through the data feeder
    systems. The data feeder systems contain the day-to-day operating information to
    be translated into financial information and processed in finance and accounting
    systems to be useful for financial managers.

            DoD Agency-Wide Financial Statements. The DoD Agency-wide
    financial statements consist of five parts: overview, principal statements, required
    supplementary stewardship information, required supplemental information, and
    other accompanying information. The principal statements consist of six financial
    statements and related footnotes. The financial statements are the balance sheet,
    the Statement of Net Cost, the Statement of Changes in Net Position, the
    Statement of Budgetary Resources, the Statement of Financing, and the Statement
    of Custodial Activity.


                                         1
For FY 1999, DFAS prepared financial statements for nine reporting entities:
DoD Agency-wide; Army, Navy, and Air Force General Funds; Army, Navy, and
Air Force Working Capital Funds; Army Corps of Engineers; and the DoD
Military Retirement Fund. In addition, DFAS prepared trial balance data for other
Defense organizations.

Transactions Requiring Elimination. The balance sheet, the Statement of Net
Cost, and the Statement of Changes in Net Position were prepared on a
consolidated basis. When DFAS prepares the DoD Agency-wide financial
statements on a consolidated basis, it should eliminate the duplicate accounting
effects of financial transactions among its components. If the double accounting
effects are not eliminated, then the amounts reported in the financial statements
are overstated. In financial statements for the consolidated entity, the revenues,
expenses, assets, and liabilities should be reported based on transactions with
outside parties.

An intragovernmental sales transaction has two sides. Reimbursable sales, or
seller side information, affect at least four general ledger accounts: revenues,
unearned revenues, receivables, and collections. Reimbursable purchases, or
buyer side information, affect expenses, advances, payables, and disbursements.
Eliminating entries should be made on consolidating financial statements, which
include a column for each entity, a column for eliminating entries, and a total
column. Table 1 shows that DoD reports three levels of transaction eliminations.


                               Table 1. Elimination Levels

 Level     Reporting Entity                              Description

   1     Federal-wide             The financial statements include receivables, revenue, and
         eliminations             unearned lines for transactions with Federal
                                  (intragovernmental) entities. The level 1 transactions
                                  should be eliminated from the consolidated financial
                                  statements of the United States. DoD disclosed level 1
                                  elimination amounts as required supplemental information.

   2     DoD Agency-wide          Transactions that should be eliminated from DoD financial
         eliminations             statements are reimbursable sale and purchase transactions
                                  between DoD Components (or intra-agency). The level 2
                                  elimination amounts were disclosed on the consolidating
                                  statements of the DoD Agency-wide financial statements.

   3     Entity eliminations      Transactions within the same DoD appropriation, account,
                                  or entity (intra-entity) should be eliminated. The level 3
                                  eliminations were disclosed on the consolidating
                                  statements of the DoD Component financial statements or
                                  trial balance data.




                                           2
Objectives
     Our overall audit objective was to determine whether the DoD Agency-wide
     financial statements were prepared in accordance with OMB Bulletin No. 97-01,
     “Form and Content of Agency Financial Statements,” October 16, 1996, as
     amended January 7, 2000. As part of the objective, we reviewed the preparation
     of the DoD Agency-wide financial statements and the accounting for and
     disclosing of intragovernmental transactions that should be eliminated on the DoD
     Agency-wide financial statements, or reported as required supplemental
     information. We also reviewed the management control program as it related to
     the overall objective. Appendix A discusses the scope and methodology related
     to the audit objectives, the management control program, and prior audit
     coverage.




                                         3
           Intragovernmental Transactions
           The FY 1999 DoD Agency-wide financial statements reflected
           $229.4 billion in intragovernmental transactions between buyers and
           sellers that were not reliable and were not adequately supported.
           DoD reported eliminating entries of $236.7 billion that were not
           reconciled with intragovernmental accounts for buyer and seller
           transactions. DFAS made $298.8 billion (absolute value) in accounting
           entries to intragovernmental and public accounts that were not adequately
           reconciled. In addition, DFAS Centers made the elimination of intra-
           agency transactions on the Statement of Net Cost to the total program cost
           and revenue lines and not by the specific programs that made up the totals.
           The intragovernmental transaction amounts were incorrectly accounted for
           and disclosed because of the following:

                  •   DoD did not issue adequate and timely guidance for making
                      eliminating entries,

                  •   DoD did not follow existing requirements for making
                      accounting entries to intragovernmental accounts,

                  •   DoD form and content guidance for preparing the Statement of
                      Net Cost was not in accordance with OMB Bulletin No. 97-01,
                      and

                  •   DoD did not fully execute the implementation strategy to
                      collect and analyze both buyer and seller side
                      intragovernmental transactions.

           As a result, the DoD Agency-wide financial statements continued to
           contain material misstatements, and the intragovernmental line items were
           unreliable. The inability of DoD to properly account for and disclose
           intragovernmental transactions and report trader partner eliminations is a
           major impediment in obtaining a favorable audit opinion on its financial
           statements for FY 2000 and beyond.


Guidance for Accounting and Disclosing Intragovernmental
Transactions
    The guidance and requirements for Federal agencies to account for and disclose
    intragovernmental transactions and for making accounting entries are contained in
    legislation, Statements of Federal Financial Accounting Standards, Federal
    Financial Accounting System Requirements, General Accounting Office
    guidance, and OMB publications. Specifically, the Federal Financial
    Management Improvement Act of 1996 requires that Federal agencies follow
    Statement of Federal Financial Accounting Standards and the Joint Financial
    Management Improvement Program publications on accounting systems. The

                                        4
     General Accounting Office and OMB reinforced those requirements in their
     guidance for Federal agencies. Appendix B contains more details on the
     accounting and disclosure requirements for DoD.

     The guidance requires DoD to establish and to implement internal accounting and
     administrative controls that provide reasonable assurance that revenue and
     expenditures are recorded and accounted for properly. The controls are also to
     ensure reliable accounts and financial and statistical reports and to maintain
     accountability of the assets. As part of the requirement, DoD must account for
     and disclose intragovernmental transactions and eliminate the effects of double
     accounting when preparing consolidating financial statements. The
     documentation, recording, and reconciling of intragovernmental transactions must
     follow specific procedures. The procedures also require fully supported
     accounting entries to the intragovernmental accounts. The reconciliation of
     intragovernmental accounts, specifically the eliminating entries and accounting
     entries made to adjust DoD accounts, is a major internal control function. In
     addition, management is responsible for ensuring adequate management controls
     over the accounting and reporting of intragovernmental transactions.


Reliability of Intragovernmental Transactions
     The FY 1999 DoD Agency-wide financial statements reflected $229.4 billion in
     transactions between buyers and sellers that were not reliable and were not
     adequately supported. Table 2 shows the amounts of intragovernmental
     transactions that were disclosed in the DoD Agency-wide financial statements for
     FY 1999.


             Table 2. Intragovernmental Amounts for Trading Partners
              Reported in the DoD Agency-Wide Financial Statements

                                                           Total Amounts
                   Financial Statement Line                  (billions)

                Accounts Receivable                           $   5.8

                Other Assets                                      1.4

                Accounts Payable                                  4.1

                Other Liabilities                                 8.9

                Intragovernmental Costs                        101.0

                Earned Revenue                                 108.2

                 Total                                        $229.4



                                              5
The sum of the eliminating entries (levels 1 and 2) should equal the total
intragovernmental transactions reported in the DoD Agency-wide financial
statements, after properly reconciling buyer and seller transaction amounts and
making appropriate supported accounting entries to the intragovernmental
accounts. However, DoD reported elimination amounts and made accounting
entries to intragovernmental and public accounts that were neither properly
reconciled between the seller and buyer nor adequately supported. Reconciliation
of eliminating and accounting entries is an internal control function required by
various legal and regulatory requirements. As a result, DoD could not provide
reasonable assurance that revenue and expenditures applicable to agency
operations were recorded and accounted for properly. Also, DoD was unable to
maintain accounts and reliable financial and statistical reports and maintain
accountability of its assets.
Reconciliation of Eliminating Entries. DoD reported $236.7 billion in
eliminating entries that were not properly reconciled between the buyer and seller.
The $236.7 billion consisted of elimination amounts equal to the $229.4 billion in
intragovernmental amounts and an additional $7.3 billion in elimination amounts
reported as required supplemental information but not included in the Statement
of Net Cost. We compared the levels 1 and 2 eliminating entries for revenue,
accounts receivable, unearned revenue, intragovernmental costs, accounts
payable, and advances that DFAS trial balance data provided with the
intragovernmental transaction amounts reported in the DoD Agency-wide balance
sheet, Statement of Net Cost, and required supplemental information. The
Statement of Net Cost and intragovernmental costs reported on the required
supplemental information reflected $22.1 billion (absolute value) in differences
between intragovernmental costs by program category. In addition, the trial
balance data used to compile earned revenue amounts contained $791 million in
abnormal balances. We did not find any differences for accounts payable,
unearned revenue, accounts receivable, and advances because DFAS had adjusted
the accounts to agree.

The reconciliation process should include a complete review of all material
variances to determine the correct amounts to be reported and eliminated on the
DoD Agency-wide and Federal-wide financial statements. However, DoD did not
perform critical checks such as performing adequate reconciliation and research
of buyer and seller transactions. The lack of checks partially results from DoD
not having the accounting systems to provide the required information and in part
results from inadequate accounting policies and procedures. DFAS procedures
required the centers to use seller side information such as reimbursement
information and revenue, accounts receivable, and unearned revenue to estimate
buyer side information such as expenses, accounts payable, and advances. As a
result, the intra-agency elimination amounts for $89.4 billion in expenses,
$4 billion in accounts payable, and $880 million in advances were assumed to be
equal to the seller side information without verifying them by reconciliation.

        Intragovernmental Program Costs. The trial balance cost information
for eliminating entries did not agree with the intragovernmental cost by a net
value of $3 billion. The absolute value of the total difference is $17.8 billion.



                                     6
Table 3 shows the differences between the amount of intragovernmental costs
reported on the FY 1999 DoD Agency-wide Statement of Net Cost and the
amount of trial balance elimination data.



    Table 3. Comparison of DoD Reported Intragovernmental Costs With
               Trial Balance Eliminating Entries by Program
                             (dollars in millions)

                                                  DoD        Trial Balance
         Program                               Agency-Wide   Eliminations    Differences

 Military Personnel                              $ 7,411       $ 5,840        $ 1,571

 Operation and Maintenance                        43,565        42,650            915

 Procurement                                       5,213         3,927           1,286

 Research, Development, Test, and Evaluation       3,384         1,174           2,210

 Military Construction/Family Housing              1,558           155           1,403

 U.S. Army Corps of Engineers Civil Works           781            782             (1)

 Working Capital Funds                            20,197        23,193         (2,996)

 Other Programs                                   18,854        26,239         (7,385)

  Total program costs (net difference)                                        $(2,997)

  Absolute value of differences                                               $17,767




         Required Supplemental Information. In addition, the amount of costs
reported on the required supplemental information was $4.3 billion more than the
trial balance data provided. The trial balance data reported $14.5 billion, and the
required supplemental information reported $18.8 billion in costs. The difference
existed because DFAS forced the amount of expenses to agree with the amount of
earned revenues. However, no reconciliation took place between the buyer and
seller transactions to determine whether the cost or earned revenue trial balance
data were correct. If the trial balance cost data had agreed with the required
supplemental information, the intragovernmental costs on the Statement of Net
Cost would have been misstated by an additional $4.3 billion, for a total
$7.3 billion net difference, or $22.1 billion absolute value.

       Earned Revenues. The earned revenues reported on the Statement of Net
Cost consisted of revenue accounts that contained $791 million in abnormal
                                         7
balances. Intragovernmental and public revenue trial balance data should equal
the total earned revenue reported on the Statement of Net Cost. Although the trial
balance data equaled the reported amount, the earned revenue trial balance data
contained abnormal balances that DoD entities provided, which understated total
earned revenues. DFAS should have researched the cause of the abnormal
balances and made corrections; however, DFAS did not provide information that
the abnormal balances were addressed. As shown in Table 4, $762.1 million of
the $791 million in abnormal balances were material to the earned revenue
amounts for three of the program categories.



           Table 4. Earned Revenue Abnormal Balances by Program
                             (dollars in millions)

                                               Earned Revenue   Abnormal
                                                   Before        Balance
                      Program                   Eliminations    Amounts     Percent

 Military Personnel                               $ 480.4        $114.8      23.9

 Research, Development, Test, and Evaluation       1,704.9        388.9      22.8

 Military Construction/Family Housing              1,331.4        258.4      19.4

  Total                                           $3,516.7       $762.1      21.7



        Seller Side Information. DFAS made the entries because the seller side
information was more reliable than the buyer side information; however, DoD
was unable to adequately support its position that seller side information was
sufficiently reliable to force buyer side information into agreement. DoD did not
provide sufficient or reliable information for us to evaluate management’s
assertions or verify amounts. Because internal control weaknesses, compilation
problems, lack of audit trails, and financial management system deficiencies
continued to exist, Inspector General, DoD, and Military Department auditors
were not able to verify amounts reported for material line items on the financial
statements. Not only is the buyer side information unreliable, but Inspector
General, DoD, and Military Department auditors have determined that the seller
side information was often incorrect or unverifiable. Appendix C discusses
examples of unreliable seller side information in the supporting FY 1999 financial
statements.

The internal control and accounting deficiencies associated with eliminating
entries are continuing problems that have been reported since the first DoD
consolidated financial statements were published for FY 1996. Until DoD can
ensure that both buyer and seller information is reliable and that the information is
reconciled and differences are researched by DFAS and DoD Components,
forcing buyer side information to agree with seller side information will be
nothing more than an unsupported adjustment. Making unsupported eliminating
                                         8
entries without proper reconciliation and research remains a major impediment in
DoD achieving a favorable audit opinion on the DoD Agency-wide financial
statements for FY 2000 and beyond.

Reconciling Accounting Entries. DoD made eliminating entries that were not
adequately reconciled and researched. In addition, DoD made $298.8 billion
(absolute value, total debit and credit entries) in accounting entries to provide
sufficient amounts to make the intragovernmental eliminations. Of the
$298.8 billion (absolute value) accounting entries:

   •   $288.8 billion (absolute value), or 96.7 percent, was unsupported;

   •   $6.7 billion (absolute value), or 2.2 percent, was to correct errors and
       adjust previous unsupported accounting entries; and
   •   $3.3 billion (absolute value), or 1.1 percent, was based on estimates.

The $288.8 billion (absolute value) in adjustments was unsupported because we
did not find adequate supporting documentation for the journal vouchers used to
make the accounting entries. DoD did not follow existing requirements for
properly reconciling and supporting accounting entries to intragovernmental
accounts. However, the USD (Comptroller) and DFAS instructed that its centers
make buyer side data transaction amounts agree with seller side information.

The $298.8 billion (absolute value) in accounting entries was made without
performing adequate reconciliations as required by OMB, General Accounting
Office, and DoD procedures. Although the accounting entries were precipitated
by the exchange of buyer and seller data between the reporting entities, the
accounting entries were generally just a reclassification (moving amounts from
one account to another) of transaction amounts between general ledger accounts.
Some reclassifications were an attempt to increase intragovernmental accounts
and bring them into agreement with the amount of eliminating entries, and other
reclassifications reduced intragovernmental accounts. The accounting entries
were made to both intragovernmental accounts and to accounts for transactions
with the public. Accounting entries were not only made to the buyer side
accounts such as accounts payable and expenses, but were also made to the seller
side accounts, such as earned revenues and accounts receivable. The following
buyer and seller discussions address accounting entries made to expenses,
accounts payable, earned revenues, and accounts receivable, which are
$243.6 billion, or 81.5 percent, of the $298.8 billion in accounting entries.

        Buyer Side Accounts. The DFAS Centers made $223.7 billion (absolute
value) in adjustments to buyer side accounts, $211.1 billion (absolute value) in
expenses and costs and $12.6 billion (absolute value) in accounts payable.
Table 5 shows examples in which DFAS Cleveland, Denver, and Indianapolis
Centers made accounting entries to increase the amount of intragovernmental
accounts payable and expenses by reclassifying amounts from expenses and
accounts payable with the public or other accounts. The increases to
intragovernmental expenses were made to ensure that sufficient amounts were
available to make eliminating entries.


                                     9
                     Table 5. Increases to Buyer Side Accounts

     DoD Entity                                Summary of the Transactions

 Army General Fund            Intragovernmental expenses increased by a net $21.3 billion,
                              and expenses with the public decreased by a net $21.3 billion.

 Army Working Capital         Intragovernmental expenses increased by a net $1.1 billion,
 Fund                         and expenses with the public decreased by a net $1.1 billion.

 Navy General Fund            Intragovernmental accounts payable increased by a net
                              $1.8 billion. Canceled accounts payable decreased by
                              $1.8 billion.

 Air Force General Fund       Intragovernmental expenses (debit balance) increased by
                              $914 million while intragovernmental accounts payable (credit
                              balance) increased by a net $914 million.

 Other Defense Organization   Intragovernmental expenses increased by $8.3 billion, and
 General Funds                expenses with the public decreased by $8.3 billion.

 Other Defense Organization   Intragovernmental expenses increased by $1.8 billion, and
 Working Capital Funds        expenses with the public decreased by $1.8 billion.



In addition, DFAS Cleveland and Indianapolis Centers made accounting entries to
reclassify amounts from intragovernmental to public expenses. The decreases
were made to ensure that intragovernmental expenses and payables would be at
zero after the level 1 and 2 eliminations were made. However, as shown in
Table 3, DoD was not successful at ensuring that intragovernmental expenses
would be at zero after eliminations. The accounting entries reducing
intragovernmental amounts on the buyer side demonstrate an inconsistency in the
centers’ applying DFAS policy. Table 6 shows examples of reclassified
transaction amounts.




                                        10
                   Table 6. Decreases to Buyer Side Accounts

         DoD Entity                             Summary of the Transactions

 Navy Working Capital Fund     Intragovernmental expenses decreased by $11.7 billion, and
                               expenses with the public increased by $10.9 billion and the
                               budget accounts increased by $0.8 billion.

 Navy Working Capital Fund     Intragovernmental accounts payable decreased by
                               $230.6 million, and undelivered orders unpaid increased by
                               $230.6 million.

 Air Force Working Capital     Intragovernmental expenses decreased by $2.7 billion, and
 Fund                          expenses with the public increased by $2.7 billion.

 Other Defense Organization    Intragovernmental accounts payable decreased by
 Working Capital Funds         $719.9 million, and intragovernmental expenses decreased by
                               $719.9 million. DFAS made a debit entry to accounts payable
                               and a credit entry to intragovernmental expenses that decreased
                               both items.



        Seller Side Accounts. The DFAS Centers made $19.9 billion in
accounting entries to seller side accounts, $17.3 billion in earned revenues and
$2.6 billion in accounts receivable. In the Table 7 examples, DFAS Cleveland,
Denver, and Indianapolis Centers made accounting entries to increase the amount
of intragovernmental revenues and accounts receivable by reclassifying amounts
from revenues and accounts receivable with the public. The increases to
intragovernmental amounts were made to ensure that sufficient amounts were
available to make eliminating entries.


                   Table 7. Increases to Seller Side Accounts

     DoD Entity                                Summary of the Transactions

Navy Working Capital Fund     Intragovernmental accounts receivable increased by
                              $308.5 million, and accounts receivable with the public
                              decreased by $308.5 million.

Air Force General Fund        Intragovernmental accounts receivable increased by $63 million,
                              and refunds receivable decreased by $63 million.

Other Defense Organization    Intragovernmental earned revenues increased by $777.8 million,
General Funds                 and earned revenues with the public decreased by $777.8
                              million.



                                         11
     In addition, DFAS Indianapolis Center made accounting entries to reclassify
     amounts from intragovernmental to public. These decreases were made in order
     to ensure that intragovernmental revenues would be at zero after level 1 and 2
     eliminations were made. However, as shown in Table 3, DoD was not successful
     at ensuring that intragovernmental expenses would be at zero after eliminations.
     The adjustments to the Army General Fund created abnormal balances for the
     earned revenues. Table 4 shows material abnormal balances in the earned
     revenue for the Research, Development, Test, and Evaluation and Military
     Construction/Family Housing program cost areas, which are attributed to the
     Army General Fund. Table 8 shows that $3 billion in decreases were made to the
     Army General Fund intragovernmental revenues. That reclassification not only
     demonstrates the inconsistency in applying DFAS policy for making the
     accounting entries, but also demonstrates that seller side information may not be
     reliable. Table 8 shows examples of reclassified transaction amounts.


                         Table 8. Decreases to Seller Side Accounts

         DoD Entity                                Summary of the Transactions

     Army General Fund            Intragovernmental earned revenues decreased by $3 billion, and
                                  earned revenues from the public increased by $3 billion.

     Army General Fund            Intragovernmental accounts receivable decreased by
                                  $188.1 million, and accounts receivable with the public
                                  increased by $188.1 million.

     Army Working Capital         Intragovernmental earned revenues decreased by $3.1 billion,
     Fund                         and earned revenues from the public increased by $3.1 billion.

     Other Defense Organization   Intragovernmental earned revenue decreased by $131.8 million,
     Working Capital Funds        and intragovernmental unearned revenue increased by
                                  $131.8 million.



Under Secretary of Defense (Comptroller) Elimination
Procedures
     DoD did not issue adequate or timely guidance for making eliminating entries and
     disclosing elimination information. No effective mechanism was in place to
     reconcile financial statement differences or test reimbursable transactions with
     partners. Since FY 1996, DoD made little progress in accounting for and
     disclosing amounts of eliminating entries. Similarly the Department has been
     slow to initiate improvements that are needed to ensure that all of the
     intragovernmental transactions were captured and that the amounts were accurate.
     In response to prior Inspector General, DoD, audit reports, DoD indicated that it
     could not perform the critical checks because many of the DoD accounting
     systems did not capture all the data necessary to reconcile with partners or to
     accurately identify elimination transactions and balances. As a possible solution,
                                             12
the USD (Comptroller) proposed that it execute an implementation strategy as a
plan to address the elimination issues. However, DoD had not sufficiently
executed the elimination strategy to collect and analyze both buyer and seller side
intragovernmental transactions and did not develop and implement adequate
guidance that addresses accounting, disclosing, and eliminating of
intragovernmental transactions.

Prior Inspector General, DoD, Audit Reports. Since DoD published its first
consolidated financial statements for FY 1996, DoD made only minimal progress
in addressing and correcting the problems that it had in accounting and disclosing
intragovernmental transactions and related eliminations. The Inspector General,
DoD, published two reports that address the issues of intragovernmental
transactions and eliminations.
        Audit Coverage for FY 1996. Inspector General, DoD, Report
No. 97-117, “Eliminating Entries,” March 31, 1997, reports that eliminating
entries generally were not reported or were not properly reported on the FY 1996
DoD consolidated financial statements. The DoD Components did not report
eliminating entries because DoD accounting systems did not permit them to
adequately identify the transactions. We recommended that the Director, DFAS,
establish requirements for new and interim migratory accounting systems to
identify sellers and purchasers in reimbursable transactions and to develop
procedures to extract reimbursable transactions from databases. In response to the
report, the USD (Comptroller) and DFAS were to issue additional guidance on
identifying and reporting eliminating entries for Federal-wide, DoD consolidated,
and DoD Component financial statements.

        Although the USD (Comptroller) and DFAS issued guidance, the guidance
was inadequate. The USD (Comptroller) issued guidance requiring the
purchasing organization to report an equal amount of accounts payable, expenses,
advances, and disbursements as the selling organization reported amounts of
accounts receivable, revenues, unearned revenues, and collections. However, that
kind of reporting is a forced accounting entry that presumes that the partner
transactions have been entered on the accounting records of the purchasing
organization. Because DoD presumes that payables, expenses, and advances were
recorded in the same amount, those accounts would also be misstated.

        Audit Coverage for FY 1997. In Inspector General, DoD, Report
No. 98-204, “Reporting and Disclosing Intragovernmental Transactions for the
FY 1997 DoD Consolidated Financial Statements,” September 21, 1998, we
reported that material differences of $19.7 billion existed between the amounts
disclosed in the “Intrafund Eliminations” notes and related line items in the
FY 1997 DoD Component Financial Statements. In addition, an eliminating entry
error was made on the FY 1997 DoD Consolidated Financial Statements of
$11.8 billion. The error occurred because DoD did not have procedures to
reconcile all intrafund transactions, and DFAS and DoD Components did not
perform critical checks to reconcile elimination amounts in the notes with the
related line items in the principal statements. As a result, the FY 1997 DoD
Consolidated Financial Statements contained material misstatements, and the
intragovernmental line items were unreliable. Specifically, advances and
prepayments had an abnormal balance of $1.5 billion.

                                    13
         We recommended that the USD (Comptroller) modify the DoD Financial
Management Regulation, DoD Regulation 7000.14-R, volume 6B, “Form and
Content of the Department of Defense Audited Financial Statements,”
October 6, 1999, to require that reconciliations be performed between buyer and
seller transactions. The USD (Comptroller) responded to the report, stating that
the implementation strategy for eliminations would require the DoD Components
to collect and analyze buyer and seller information. Based on the results of the
data collection, new procedures and policies on reporting intragovernmental
transactions would be issued. The data collection would be executed through an
implementation strategy.

Implementation Strategy. DoD did not adequately execute the implementation
strategy to collect and analyze both buyer and seller side intragovernmental
transactions. Further, DoD did not perform research down to where the
transaction originated. The USD (Comptroller) issued implementation strategy on
eliminating entries on November 19, 1998. The strategy specified a plan for the
Military Departments and the Defense agencies to analyze their seller side intra-
agency transactions, and to review the capability to determine buyer side
interagency transactions and identify major trading partners. The strategy stated
that a request for the data would go out in November 1998 and the results would
be reported back in March 1999. Based on the results of the data collected, the
USD (Comptroller) would prepare guidance for documenting and reporting
eliminating entries. DoD had to use a data call because DoD did not know how
intragovernmental transactions originate, are accounted for, and are summarized
by its accounting systems.

Data Request. On January 20, 1999, the USD (Comptroller) issued a
memorandum, “Subject: Implementation Strategy Issue-Intragovernmental
Eliminations,” requesting the buyer and seller information. Not only was the data
collection untimely, but the effort was also inadequate. The USD (Comptroller)
request gave the DoD Components only 1 month, to February 26, 1999, to
respond. The implementation strategy originally allowed 2 to 3 months for the
responses. In addition, the request did not ask for the DoD Components to
provide details down to the transaction level for either sales or purchases. To
accomplish an effort of that magnitude, 1 month is insufficient time for the DoD
Components to research intragovernmental transactions down to the transaction
level. Unless DoD Components research intragovernmental transactions through
the financial management systems and down to the point of origin, the problems
affecting the ability of DoD to account and report intragovernmental transactions
will not be identified and viable solutions will not be developed.

DoD Component Responses. Because the data request did not require the DoD
Components to research intragovernmental transactions down to the transaction
level, the buyer side of the transactions was only reported by some of the Defense
components. The Navy, Air Force, and Defense Logistics Agency responses
indicated the lack of adequate accounting systems to produce the buyer side data.
The Army made a minimal attempt to research buyer and seller data, and the
Navy, the Air Force, and the Defense Logistics Agency responses indicated that
large manual efforts would be necessary to obtain all the information requested.
Table 9 summarizes the responses received to the data request.


                                    14
            Table 9. Summary of Responses to the Request for Buyer
                           and Seller Information

        •    The Army requested that DFAS Indianapolis Center obtain the information
             for the January 20 request; however, DFAS Indianapolis Center was unable
             to meet the time frame.

        •    The Navy was unable to provide partial data in response to the request.
             According to the Navy, its ability to provide buyer information was
             severely restricted because of the lack of accounting data or reliable
             management information systems.

        •    The Air Force was able to report amounts for seller side transactions for
             the general funds; however, the Air Force was unable to provide the
             detailed information. The Air Force accounting systems could not capture
             buyer side information and the Air Force said that obtaining the data would
             require a manual compilation. The Air Force Working Capital Fund
             information was not in the Air Force package.

        •    The Defense Logistics Agency did not provide the requested information
             and responded that its legacy feeder and accounting systems were unable to
             capture the level of detail requested.

        •    The other Defense agencies were able to provide the intragovernmental
             amounts and elimination amounts for their general funds and the Military
             Retirement Fund.



DoD must execute the implementation strategy down to the level where
transactions originate. If DoD does not identify the revenue and cost transaction
cycles and the causes for any accounting deficiencies, then it cannot develop
adequate DoD accounting policies and procedures or make improvements to DoD
financial management systems. To ensure adequate execution of the
implementation strategy, the USD (Comptroller) should establish a working group
with DFAS and DoD Components to re-execute the implementation strategy
down to the transaction origin.

Reconciliation, Reporting, and Elimination Procedures. Because DoD did not
adequately execute the implementation strategy, the USD (Comptroller) could not
develop an adequate plan to correct financial system deficiencies that impacted
the accounting and reporting of intragovernmental transactions, nor could it
develop adequate procedures for accounting for, reconciling, and reporting
intragovernmental transactions.

DoD Guidance. The DoD Form and Content provides the framework of the
reporting format and disclosure requirements for the preparation of financial
statements by the DoD Components. On September 11, 1999, the USD
(Comptroller) issued a draft chapter 13, “Fiscal Year 1999 Accounting Entries,

                                         15
Eliminations, and Other Special Intragovernmental Reconciliation Procedures”;
however, the draft was never finalized and issued as part of the DoD Form and
Content.

        Draft Guidance on Intragovernmental Transactions. Because the draft
chapter 13 was not finalized as of November 17, 1999, the USD (Comptroller)
and DFAS issued the draft elimination guidance for the centers and DoD
Components to use. However, the draft guidance was inadequate because it
specified that buyer side information should be forced to agree with seller side
information without requiring an adequate reconciliation. The guidance required
that the DFAS Centers and DoD Components extract seller side information by
trading partners because DoD presumed that the intragovernmental receivables,
revenue, and unearned revenue were correct. The seller side information was then
compared with the buyer side data at the appropriation and working-capital-fund
levels for which the buyer side information was to be reviewed and adjusted to
agree with the seller side figures at the summary level. After the accounting
entries were made, the effects of the intra-entity transactions were to be
eliminated when preparing the financial statements. As in prior years, the
guidance specified that “eliminating entries will again be based on information
provided by the seller/service provider.”

        The USD (Comptroller) and DFAS personnel stated that the guidance
requiring the buyer data to match seller data was the result of U.S. Treasury
requirements. The U.S. Treasury did require that intragovernmental transactions
reported under Federal Agencies Centralized Trial Balance Systems be in balance
between buyer and seller; however, DoD and the other Federal agencies were
required to perform a full reconciliation of the information. In addition, the DoD
guidance was in conflict with the Federal Financial Management Improvement
Act of 1996 and other authoritative guidance that DoD was required to
implement, which is discussed in Appendix B. The authoritative guidance
requires that general ledger accounts be reconciled and accounting adjustments be
supported.

        DFAS personnel also stated that the unsupported buyer-to-seller
accounting entries could have been avoided for the preparation of the financial
statements and the differences between the intragovernmental amounts on the
financial statements and Federal Agencies Centralized Trial Balance Systems
could have been footnoted. However, DFAS personnel stated that they did not
want the alternative of making the footnotes to the financial statements. To that
end, the USD (Comptroller) should revise DoD Regulation 7000.14-R, volume
6B, to include a critical check for reconciliation, to include validating eliminating
entries for all three levels of intragovernmental transactions and disclosing any
unreconciled accounting entries in the footnotes.

Although all reasonable efforts should be used to reconcile elimination amounts
and intragovernmental accounts, we realize that adequate reconciliations may not
be possible in all cases until the implementation strategy is adequately executed.
In those cases that adequate reconciliations are not performed, the
USD (Comptroller) should modify DoD Regulation 7000.14-R, volume 6B, to
instruct entities to properly identify and disclose all unreconciled elimination and
intragovernmental account adjustment amounts in the footnotes to the financial

                                     16
     statements. The footnotes should state that elimination transactions have not been
     properly reconciled and researched, that buyer side information contains
     unsupported accounting entries, and that actions are being taken to correct the
     financial management systems of DoD, so that intragovernmental transactions can
     be properly accounted for and made. In addition, the USD (Comptroller) needs to
     issue its guidance in regard to eliminating entries in a timely manner. The
     revisions to DoD Regulation 7000.14-R, “Financial Management Regulation,”
     should be issued in time to prepare the FY 2000 financial statements.

     Supporting Accounting Entries. The requirement to support accounting
     transactions to include accounting entries is well established, as discussed in
     Appendix B. Transactions may be supported by copies of original documentation
     or by performing detailed reconciliations between accounts or records. The
     procedures of DoD contained in the DoD Financial Management Regulation,
     DoD Regulation 7000.14-R, volume 6A, “Reporting Policy and Procedures,”
     January 1998, and the DFAS draft guidance of November 17, 1999, address
     documentation and audit trails necessary to support department-level accounting
     entries. The DFAS Centers, however, did not follow those procedures for
     supporting and reconciling accounting entries made for the elimination process.


Presentations of Eliminations on the Consolidating Statement
of Net Cost
     In addition, DoD entities made the elimination of intra-agency transactions on the
     consolidating Statement of Net Cost to the total program cost and revenue lines
     and not to the specific programs that made up the totals. DoD Form and Content
     guidance for preparing the Statement of Net Cost was not in accordance with
     OMB Bulletin No. 97-01. As a result, the DoD Agency-wide consolidating
     Statement of Net Cost understated the intragovernmental costs and overstated
     earned revenues by program category. For example, the operation and
     maintenance intragovernmental cost reported a combined total of $43.6 billion but
     did not show the intra-agency elimination of $35.4 billion, or a consolidated total
     of $8.2 billion. The Working Capital Funds earned revenues showed a combined
     total of $66 billion but did not show the intra-agency elimination of $52.9 billion,
     or a consolidated total of $13.1 billion. Appendix D shows an audit-reconstructed
     FY 1999 DoD Agency-wide consolidating Statement of Net Cost.

     Program Categories. The DoD Agency-wide consolidating Statement of Net
     Cost showed a gross sum of intragovernmental costs of $89.4 billion and a gross
     sum of earned revenues of $89.4 billion under total program costs. The
     intragovernmental cost and earned revenue amounts were not presented or broken
     out by the nine DoD program categories, although the information was available.
     If intragovernmental costs had been reported by program category, they would
     have shown that the intragovernmental costs for the “Other Programs” category
     had differences between the reported amount and the intra-agency eliminations of
     $7.1 billion.



                                         17
    DoD Form and Content. Chapter 5, paragraph 0501, of the DoD Form and
    Content shows the format for the consolidating Statement of Net Cost. The
    format shows the intra-agency eliminations at the “Total Program Cost” category;
    however, the format in OMB Bulletin No. 97-01 shows intra-agency eliminations
    by program category. The USD (Comptroller) should modify the DoD Form and
    Content to be in agreement with OMB Bulletin No. 97-01.


Conclusion
    Merely forcing eliminating entries and intragovernmental accounts to agree does
    not ensure that amounts are accurately reflected on the DoD Agency-wide
    financial statements and reported to the U.S. Treasury. Financial accounting has
    no authoritative requirement that revenue and expenses have to be equal between
    trading partners. In fact, expenses and revenues probably would not be equal at
    year-end because the buyer would not have recorded expenses for goods and
    materials in shipment, work in process, or items that may be recorded as an asset.
    A strong reconciliation process between the buyer and seller should identify the
    causes for differences between the buyer’s and seller’s records and should form
    the basis for adjusting intragovernmental accounts. The reconciliation process is
    also an essential internal control in compiling accounting and financial
    information.


Recommendations, Management Comments, and Audit
Response
    We recommend that the Under Secretary of Defense (Comptroller):

           1. Determine the causes for abnormal balances and document the
    action taken to correct the account balances.

    Management Comments. The USD (Comptroller) stated that DFAS has
    researched abnormal balances caused by the elimination process and will
    document any corrections on journal vouchers.

           2. Establish a working group with the Defense Finance and
    Accounting Service and the DoD Components to re-execute the
    implementation strategy down to the transaction origin level to develop
    solutions to improve the elimination process.

    Management Comments. The USD (Comptroller) stated that the Department’s
    accounting systems will not support the elimination process and that there was not
    an adequate Government-wide policy addressing the elimination and
    reconciliation issues. In the meantime, DFAS is attempting to identify alternative
    ways to develop electronic files at the transaction level.



                                        18
Audit Response. The USD (Comptroller) comments were not fully responsive.
In order to fix its accounting systems or to develop alternative methods to identify
and eliminate intragovernmental transactions, DoD will have to start its research
at the transaction point of origin and identify breakdowns in the processes as the
transactions are rolled up to the DFAS Centers.

We disagree that inadequate Government-wide guidance is a major issue that
precludes DoD from developing more reliable elimination processes. Most of the
intragovernmental transactions recorded by DoD are intra-agency. For example,
of the $108.2 billion of the reported earned revenues, $89.4 billion (82.6 percent)
were intra-agency earned revenues. The magnitude of the intra-agency
transactions should be sufficient incentive for DoD to develop alternative methods
and to fix accounting systems in order to improve the elimination process. Also,
the Department of the Treasury issued extensive guidance on eliminations in
September 2000.

The details and the completion date of identifying the alternate ways were not
provided. We request that the USD (Comptroller) provide additional comments
on how the alternative will achieve the goals of the implementation strategy for
eliminations. In addition, the details on the alternative should address
coordination with the Military Departments and DoD organizations and how
transactions will be captured.

       3. Modify DoD Regulation 7000.14-R, “Financial Management
Regulation,” to require Defense Finance and Accounting Service Centers and
DoD Components to reconcile buyer side and seller side information and
disclose any unreconciled amounts in the footnotes to the financial
statements. For example, the footnotes could state that elimination
transactions have not been properly reconciled and researched, buyer side
information contains unsupported accounting entries, and actions are being
taken to correct DoD financial management systems, so that DoD can
properly account for and make intragovernmental transactions. The Under
Secretary of Defense (Comptroller) should issue the revision to the
“Financial Management Regulation” in time to prepare the FY 2000
financial statements.

Management Comments. The USD (Comptroller) agreed that, ideally, buyers
and sellers should record and report intragovernmental transactions consistently.
However, because of the large number of intragovernmental transactions and
inadequate accounting systems, it is not feasible to rely on an after-the-fact
reconciliation. The USD (Comptroller) issued interim guidance that will result in
a feasible approximation of intragovernmental balances and elimination. Also,
chapter 10, “Notes to the Financial Statements,” volume 6B, “Form and Content
of DoD Audited Financial statements,” of the Financial Management Regulation,
issued December 5, 2000, requires that full disclosure be made of material
differences identified during the comparison process of intragovernmental
amounts.




                                     19
       4. Modify DoD Regulation 7000.14-R, “Financial Management
Regulation,” to make the Regulation consistent with OMB Bulletin 97-01 by
requiring DoD entities to disclose elimination amounts for each program
category on the DoD Agency-wide consolidating Statement of Net Cost.

Management Comments. The USD (Comptroller) stated that a revision issued
in October 2000 of chapter 5, “Statement of Net Cost,” volume 6B, “Form and
Content of DoD Audited Financial statements,” of the Financial Management
Regulation requires the reporting of intra-entity eliminations for each program
category.




                                   20
Appendix A. Audit Process

Scope
    As part of our effort to determine whether the DoD Agency-wide financial
    statements were presented fairly in accordance with OMB Bulletin No. 97-01, we
    reviewed the preparation and presentation of the DoD Agency-wide balance sheet
    and Statements of Net Cost, footnotes, and required supplemental information for
    FY 1999. We reviewed the statements as they related to the accounting and
    disclosure of intragovernmental transactions and elimination of intra-agency
    transactions between buyer and seller on the DoD Agency-wide financial
    statements. We did not focus our review on fiduciary transactions with other
    Federal agencies.

    The DoD Agency-wide Statement of Net Cost for FY 1999 identified total
    program costs of $410.3 billion and total earned revenue of $32.5 billion for a
    total net cost-of-operations of $377.8 billion. In addition, DoD reported total
    assets of $599 billion, total liabilities of $999 billion, and total budgetary
    resources of $628 billion. The DoD net position at the end of the period was a
    negative $400 billion. The total DoD assets did not include assets identified as
    National Defense property, plant, and equipment. National Defense property,
    plant, and equipment assets were included as supplementary stewardship
    information in the financial statements.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure.

           •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key warfighting capabilities. Transform the
               force by exploiting the Revolution in Military Affairs, and reengineer
               the Department to achieve a 21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
               on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. The




                                        21
    reform objectives and goals are not necessarily a part of the DoD planning and
    assessment effort in response to the Government Performance and Results Act.
    This report pertains to achievement of the following functional area objectives
    and goals.

           •   Financial Management Area Objective: Reengineer DoD business
               practices. Goal: Standardize, reduce, clarify, and reissue financial
               management policies. (FM 4.1)

           •   Financial Management Area Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act of 1982. (FM 5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Methodology
    We analyzed the DoD Agency-wide financial statements to determine whether the
    intragovernmental transactions for buyers and sellers were properly disclosed on
    the financial statements and required supplemental information. We reviewed
    $298.8 billion (absolute value) in accounting entries that the DFAS Centers made
    to intragovernmental and related public accounts to determine whether they were
    properly supported. Also, we assessed whether the $236.7 billion in eliminating
    entries to the balance sheet, the Statement of Net Cost, and the required
    supplemental statement were properly made, supported, and reconciled. We
    obtained and reviewed trial balance data and summary partnership data that
    DFAS used to compile the DoD Agency-wide financial statements and required
    supplemental statements. We compared financial information in the FY 1999
    DoD Component financial statements with the DoD Agency-wide financial
    statements.

    We also obtained and reviewed audit reports related to the FY 1999 DoD Agency-
    wide and DoD Component financial statements. In addition to the FY 1999 audit
    reports, we reviewed followup actions on prior audit reports related to
    intragovernmental transactions. We also reviewed the execution of the
    implementation strategy and responses to the strategy. We also reviewed the
    FY 1999 management representation letter and the Financial Management
    Improvement Plan, September 1999.

    We reviewed intragovernmental transactions to determine whether the
    presentation and disclosure was in accordance with OMB Bulletin No. 97-01 and
    other related guidance listed in Appendix B. We also reviewed the adequacy of
    the DoD Form and Content and DFAS guidance. We conducted interviews with
    USD (Comptroller) personnel regarding the preparation of the DoD Agency-wide




                                        22
    and DoD Components’ financial statements and compilation of and procedures
    used for the accounting, reporting, and disclosure of intragovernmental
    transactions.

    Computer-Processed Data. We could not rely on the computer-processed data
    used to prepare the DoD Component and Agency-wide financial statements for
    FY 1999. DoD financial management systems were unreliable. DoD candidly
    addressed deficiencies in its financial management systems in the Annual
    Statement of Assurance, the DoD Financial Management Improvement Plan, and
    the management representation letter for the DoD financial statements for
    FY 1999. Unreliable computer-processed data were used in preparing the
    departmental entries, the eliminating entries, the financial statements, and this
    report because they were the only data available. However, when the data are
    reviewed in context with other available evidence, we believe that the opinions,
    conclusions, and recommendations in this report are valid. We will continue to
    review the adequacy of existing and proposed financial management systems.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from February through July 2000. We conducted this audit in accordance with
    generally accepted Government auditing standards issued by the Comptroller
    General of the United States, as implemented by the Inspector General, DoD.
    Accordingly, we included tests of management controls as we considered
    necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. As part of our overall
    objective to determine whether the DoD Agency-wide financial statements were
    presented fairly, we also reviewed the adequacy of management controls, which
    included the management control program, related to the preparation of the DoD
    Agency-wide financial statements and the accounting and reporting for
    intragovernmental transactions. We also reviewed management’s self-evaluation
    applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the USD (Comptroller) as defined by DoD
    Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996. The management controls were deficient over the preparation
    of the DoD Agency-wide balance sheet, the Statement of Net Cost, and required
    supplemental information in that we identified a material weakness in the



                                        23
    accounting and disclosing of intragovernmental transactions. The
    recommendations in this report, if implemented, will improve the management
    controls. A copy of the report will be provided to the senior official responsible
    for management controls in DoD.

    Adequacy of Management’s Self-Evaluation. Management reported
    intragovernmental eliminations as a material weakness. The USD (Comptroller)
    acknowledged in its management representation letter for the DoD Agency-wide
    financial statements for FY 1999 that the financial statements may not be
    presented in full conformity with Federal accounting standards and that
    intragovernmental transactions may not have been explicitly disclosed and
    eliminated. Also, management reported the lack of adequate accounting systems
    as a management control deficiency and the problems with intragovernmental
    eliminations as an impediment to an audit opinion in the FY 2000 DoD Financial
    Management Improvement Plan.


Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have conducted
    multiple reviews related to financial statement issues. General Accounting Office
    reports can be accessed on the Internet at http:/www.gao.gov, and Inspector
    General, DoD, reports can be accessed on the Internet at
    http:/www.dodig.osd.mil/audit/reports.




                                         24
Appendix B. Laws and Regulations

Laws
    Federal Financial Management Improvement Act of 1996. The purposes of
    the Federal Financial Management Improvement Act of 1996 are to do the
    following:

           •   provide for consistency of accounting by an agency (department) from
               one fiscal year to the next, and provide uniform accounting standards
               throughout the Federal Government;

           •   require Federal financial management systems to support full
               disclosure of Federal financial data, including the full costs of Federal
               programs and activities, to the citizens, Congress, the President, and
               agency management, so that programs and activities can be considered
               based on the full costs and merits;

           •   increase the accountability and credibility of Federal financial
               management;

           •   improve performance, productivity, and efficiency of Federal
               Government financial management;

           •   establish financial management systems to support controlling the cost
               of Federal Government; and

           •   increase the capability of agencies to monitor execution of the budget
               by more readily permitting reports that compare spending of resources
               with results of activities.


General Accounting Office Guidance
    General Accounting Office, “Standards for Internal Control in the Federal
    Government,” November 1999. The General Accounting Office, “Standards for
    Internal Control in the Federal Government,” November 1999, provides an overall
    framework for internal control. The standards state the following:
               Control activities occur at all levels and functions of the entity. They
               include a wide range of diverse activities such as approvals,
               authorizations, verifications, reconciliations, performance reviews,
               maintenance of security, and the creation of related records, which
               provide evidence of execution of these activities as well as appropriate
               documentation.




                                            25
     In addition, the standards require clear documentation of all transactions and other
     significant events, and the documentation should be readily available for
     examination.


Statements of Federal Financial Accounting Standards
     Statement of Federal Financial Accounting Standards No. 4, “Managerial
     Cost Accounting Standards,” July 31, 1995. Statement of Federal Financial
     Accounting Standards No. 4 contains managerial cost concepts and standards for
     requirements for cost accounting, responsibility segments, full cost, inter-entity
     costs, and cost methodology. Government managers, Congress and Federal
     executives, and citizens, including news media and interest groups, intend the
     concepts and standards for use. Statement of Federal Financial Accounting
     Standards No. 4 specifically requires that “intra-entity expenses/assets and
     financing sources would be eliminated.” The standards are aimed at achieving
     three general objectives, which are as follows:

            •   to provide program managers with relevant and reliable information
                relating costs to outputs and activities;

            •   to provide relevant and reliable cost information to assist Congress and
                executives in making decisions about allocating Federal resources,
                authorizing and modifying programs, and evaluating program
                performance; and

            •   to ensure consistency between costs reported in general purpose
                financial reports and costs reported to program managers.

     The standard was effective beginning FY 1998, according to Statement of Federal
     Financial Accounting Standards No. 9, “Deferral of the Effective Date of
     Managerial Cost Accounting Standards for the Federal Government in Statement
     of Federal Financial Accounting Standards No. 4,” October 1997.

     Statement of Federal Financial Accounting Standards No. 7, “Accounting for
     Revenue and Other Financing Sources,” May 10, 1996. Statement of Federal
     Financial Accounting Standards No. 7 presents standards to account for inflows of
     resources from revenue and other financing sources. It provides standards for
     classifying, recognizing, and measuring resource inflows. The objective of the
     standards is to make the U.S. Government’s proprietary accounting more
     supportive of the budget and more comprehensible to those who work primarily
     with the budget. The standard was effective beginning FY 1998.




                                         26
Federal Accounting System Requirements
    JFMIP-SR-99-4, “Core Financial System Requirements,” February 1999.
    The Joint Financial Management Improvement Program publication,
    JFMIP-SR-99-4, “Core Financial System Requirements,” February 1999, states
    that elimination amounts must be identified, and adequate audit trails are critical
    to providing support for transactions and balances maintained by the core
    financial system. Specifically, the core financial system must do the following:

           •   provide the ability to process intragovernmental transactions and track
               intragovernmental balances;

           •   specifically identify amounts that would be eliminated when preparing
               intra-agency and interagency consolidations;

           •   provide audit trails to trace transactions from source documents,
               original input, other systems, system-generated transactions, and
               internal assignment transactions through the system; provide details to
               support account balances; and provide audit trails to trace transactions
               from their point of origination through to their summarization to the
               financial statements and the reverse;

           •   provide audit trails to identify changes made to system parameters and
               tables that would affect the processing of financial transactions;

           •   provide audit trails that identify document input, change, approval, and
               deletions by originator, and provide audit trails to identify any system
               changes, as well as document progress and changes;

           •   ensure that all transactions are handled consistently to ensure the
               validity of audit trails and transactions, regardless of their point of
               origin; and

           •   provide a method for archiving data that will be needed for audit trails
               and a method for easily accessing any documents that are needed in
               the future.

    The reconciliation of the general ledger is a mandatory core requirement and
    supports the control function of the general ledger. The reconciliation must
    generate reports that show amounts between components of the core accounting
    system and related general ledger accounts and annotate out-of-balance
    conditions. It also must maintain an audit trail of any corrections.

    The key goal of the core financial system is to provide:
               complete, reliable, consistent, timely, and useful financial management
               information on operations to enable central management agencies,
               individual operating agencies, divisions, bureaus and other sub-units to
               carry out their fiduciary responsibilities. The fiduciary responsibilities




                                             27
               are to deter fraud, waste, and abuse of resources, and facilitate efficient
               and effective delivery of programs by relating financial consequences
               to program performance.



Office of Management and Budget Guidance
    OMB Bulletin No. 97-01, “Form and Content of Agency Financial
    Statements,” October 16, 1996, as amended January 7, 2000. OMB Bulletin
    No. 97-01 defines the form and content of financial statements that executive
    departments and agencies must submit to the Director, OMB, as required by the
    Chief Financial Officers Act of 1990. OMB Bulletin No. 97-01 is the main
    authority for preparing annual audited financial statements that are prepared in
    accordance with the Chief Financial Officers Act. The annual financial
    statements are different than the reports submitted to OMB for purposes of
    monitoring and controlling the obligation and expenditure of budgetary resources,
    which agencies must still prepare and submit. The Bulletin also establishes the
    reporting and disclosure requirements for the Statements of Federal Financial
    Accounting Standards, which are delineated in chapter 13, “Form and Content of
    Financial Statements.” The Bulletin incorporates concepts and standards
    recommended by the Federal Accounting Standards Advisory Board and issued
    by OMB. It is effective in its entirety for financial statements for the fiscal year
    beginning October 1, 1997. The formats and instructions provide a framework
    within which individual agencies have the flexibility to provide information
    useful to Congress, agency managers, and the public. The Bulletin defines the
    minimal Government-wide requirements for the minimum elements of the
    financial statements, which include the following:

           •   the overview of the reporting entity,

           •   six principal financial statements (balance sheet, Statement of Net
               Cost, Statement of Changes in Net Position, Statement of Budgetary
               Resources, and Statement of Financing, Statement of Custodial
               Activity),

           •   footnotes, and

           •   supplemental financial and management information.

    OMB Bulletin No. 97-01 requires the balance sheet and Statement of Net Cost to
    be prepared on a consolidated basis. When statements are prepared on a
    consolidated basis, the statements should in be a multi-column format to present
    information on the entity’s components with a column that shows the amount of
    intra-agency amounts needed to arrive at consolidated totals. The elimination
    amounts for intra-agency costs and earned revenue amounts are to be shown on
    the Statement of Net Cost consolidation by program cost category. Transaction
    amounts with other Federal agencies are to be reported as required supplemental
    information.




                                              28
Intragovernmental amounts that are related to other Federal trading partners are to
be presented as required supplemental information. Reporting entities are
encouraged to reconcile intragovernmental amounts with their trading partners.
Balances reported for assets and liabilities and individual transactions that
collectively comprise 20 percent or more of asset and liability categories are to be
reconciled. If agencies have intragovernmental earned revenues and related costs
greater that $2 billion, they should be reported by trading partner.

OMB Circular No. A-127, “Financial Management Systems,” July 23, 1993.
OMB Circular No. A-127, “Financial Management Systems,” July 23, 1993,
provides the policies and standards for developing, operating, evaluating, and
reporting on financial management systems. The Circular requires that each
agency establish and maintain a financial management system that does the
following:
       •   reflects an agency-wide financial information classification structure
           that is consistent with the U.S. Government Standard General Ledger,
           provides for tracking of specific program expenditure, and covers
           financial and financially related information;

       •   provides for effective and efficient interrelationships between
           software, hardware, personnel, procedures, controls, and data within
           the system by having common data elements, common transaction
           processing, consistent management controls, and efficient transaction
           entry;

       •   records financial events applying the U.S. Standard General Ledger at
           the transaction level;

       •   maintains accounting data to permit reporting in accordance with
           applicable accounting standards or, in the case of no Federal standard,
           maintains data in accordance with applicable accounting standards for
           preparing financial statements;
       •   meets requirements for agency financial management reporting and
           performance measurement (program and financial);

       •   conforms to existing, applicable Federal Financial Management
           Systems requirements issued by the Joint Financial Management
           Improvement Program or additional functional requirements issued by
           OMB or the U.S. Treasury;

       •   has adequate documentation; and

       •   includes a system of management controls.




                                     29
Appendix C. Examples of FY 1999 Unreliable
Seller Side Information
   1. The Army Audit Agency reported that the Departmental Budgetary
      Accounting and Reporting System that DFAS used to compile data for the
      Statement of Budgetary Resources did not provide an audit trail to supporting
      documentation. The Army Audit Agency also tested transactions at the local
      level and concluded that the management controls over the accounting,
      processing, and reporting of collections and reimbursable orders were not
      fully effective. The Army General Fund reported $10.9 billion in collections.
      Collections and reimbursable orders were not always properly recorded using
      correct reimbursement source codes, with audit trails to supporting
      documentation, nor were the transactions recorded promptly. Reimbursement
      source codes are three-place digits that identify appropriations and sales
      customers.

   2. The Army Audit Agency was unable to trace transactions or verify amounts
      reported in the Army Working Capital Fund Statement of Net Cost and
      $10 billion in budgetary resources reported on the Statement of Budgetary
      Resources. Accounting systems used to compile the Statement of Net Cost
      did not maintain sufficient information to verify reported amounts. DFAS
      Indianapolis Center used information that provided gross numbers and not
      detailed transactions. In addition, the Inspector General, DoD, determined
      that DFAS Indianapolis Center made $10 billion in unsupported adjustments
      to the budget data. Because of the accounting system deficiencies, audit trails
      were not available to trace transactions.

   3. The Naval Audit Service reported management control deficiencies related to
      seller side information. The Navy did not maintain source documentation for
      some of the earned revenue. Transactions that needed to be eliminated on the
      Navy General Fund Statement of Net Cost could not be identified. In
      addition, the accounts receivable balance on the financial statements was
      found to be unreliable. The Navy reported earned revenues of $4.2 billion and
      accounts receivable of $2.5 billion.

   4. The Naval Audit Service identified management control deficiencies over
      accounts receivable reported on the Navy Working Capital Fund financial
      statements. The Navy Working Capital Fund financial statements showed
      $596.7 million in accounts receivable. The Naval Audit Service reported the
      following:

          •   accounts receivable Federal subsidiary accounts were not reconciled to
              the general ledger,

          •   accounts receivable for supply management was not based on
              individual transactions,




                                       30
       •   accounts receivable audit trails were lacking because supporting
           documentation was not retained and subsidiary ledgers were
           incomplete,

       •   accounts receivable management controls failed to identify irregular
           and noncompliant reporting practices, and

       •   accounts receivable eliminating entries for supply management could
           not be tested at the transaction level.

   In addition, the Naval Audit Service reported that revenue was not always
   recognized on the percentage-of-completion basis.

5. The Air Force Audit Agency stated that the Air Force could not identify all
   intragovernmental transactions by customer for the Air Force General Fund
   financial statements. The Air Force reported $508.8 million in
   intragovernmental accounts receivable and $2.9 billion in earned revenue for
   FY 1999.

6. The Air Force Audit Agency reported that the Air Force Depot Maintenance
   Activity Group accounting systems did not retain subsidiary ledgers and
   transaction journals. As a result, revenue could not be recognized on the
   percentage-of-completion basis. The Air Force reported $5.2 billion in depot
   maintenance revenues for the Working Capital Fund Statement of Net Cost.
   In addition, the Air Force Audit Agency reported that the Supply Management
   Activity Group could not provide supporting documentation for $64.6 million
   (or 59 percent) of its $109.3 million in sales transactions reviewed.




                                   31
Appendix D. Reconstructed FY 1999 DoD
Agency-Wide Consolidating Statement of Net Cost
(dollars in millions)

                                                                             Audit
                                            DoD Combined   Intra-Agency   Consolidated
             Program Costs                     Totals      Eliminations     Totals

Military Personnel
 Intragovernmental                           $ 7,410.5      $(5,839.4)      $ 1,571.1
 With the Public                              61,962.4              --       61,962.4
 Total Program Cost                          $69,372.9     $ (5,839.4)     $ 63,533.5
 (Less: Earned Revenues)                       (480.4)           433.8         (46.6)
 Net Program Costs                           $68,892.5     $(5,405.6)       $63,486.9

Operation and Maintenance
  Intragovernmental                         $ 43,565.4     $(35,382.5)    $ 8,182.9
  With the Public                             133,893.6             --     133,893.6
  Total Program Cost                         $177,459.0    $(35,382.5)    $142,076.5
  (Less: Earned Revenues)                      (9,676.9)       6,852.8      (2,824.1)
  Net Program Costs                          $167,782.1    $(28,529.7)    $139,252.4

Procurement
  Intragovernmental                          $ 5,212.8      $(3,773.1)     $ 1,439.7
  With the Public                             54,929.5              --      54,929.5
  Total Program Cost                         $60,142.3      $(3,773.1)     $56,369.2
  (Less: Earned Revenues)                      (397.7)           266.7       (131.0)
  Net Program Costs                          $59,744.6      $(3,506.4)     $56,238.2

Research, Development, Test, & Evaluation
  Intragovernmental                          $ 3,384.3       $(767.9)      $ 2,616.4
  With the Public                              36,954.3            --       36,954.3
  Total Program Cost                         $40,338.6       $(767.9)      $39,570.7
  (Less: Earned Revenues)                     (1,704.9)       1,197.8        (507.1)
  Net Program Costs                          $38,633.7       $ 429.9       $39,063.6

Military Construction/Family Housing
 Intragovernmental                           $ 1,557.7       $(136.3)        $1,421.4
 With the Public                                2,481.9            --         2,481.9
 Total Program Cost                          $ 4,039.6       $(136.3)        $3,903.3
 (Less: Earned Revenues)                      (1,331.4)       1,223.1         (108.3)
 Net Program Costs                           $ 2,708.2       $1,086.8        $3,795.0




                                             32
                                                                   Audit
                                 DoD Combined   Intra-Agency    Consolidated
         Program Costs              Totals      Eliminations      Totals

Military Retirement Fund
 Intragovernmental                         --              --             --
 With the Public                  $ 49,376.9               --    $ 49,376.9
 Total Program Cost               $ 49,376.9               --    $ 49,376.9
 (Less: Earned Revenues)           (38,019.1)       $25,666.9     (12,352.2)
 Net Program Costs                $ 11,357.8        $25,666.9    $ 37,024.7

USACE* Civil Works
  Intragovernmental                 $ 781.3           $(43.8)       $ 737.5
  With the Public                    4,248.8               --        4,248.8
  Total Program Cost                $5,030.1          $(43.8)       $4,986.3
  (Less: Earned Revenues)            (674.4)             43.8        (630.6)
  Net Program Costs                 $4,355.7          $    --       $4,355.7

Working Capital Funds
 Intragovernmental                $ 20,197.1    $(17,552.7)      $ 2,644.4
 With the Public                     48,472.1            --      $ 48,472.1
 Total Program Cost               $ 68,669.2    $(17,552.7)         51,116.5
 (Less: Earned Revenues)           (66,032.2)      52,940.7       (13,091.5)
 Net Program Costs                $ 2,637.0     $ 35,388.0       $ 38,025.0

Other Programs
  Intragovernmental                $ 18,853.9                     $(7,078.8)
                                                $(25,932.7)
  With the Public                     6,489.1            --          6,489.1
  Total Program Cost               $ 25,343.0   $(25,932.7)       $ (589.7)
  (Less: Earned Revenues)           (3,590.0)         802.9        (2,787.1)
  Net Program Costs                $ 21,753.0   $(25,129.8)       $(3,376.8)

Total Program Costs
  Intragovernmental              $ 100,963.1    $(89,428.4)      $ 11,534.7
  With the Public                  398,808.5             --        398,808.5
  Total Program Cost             $ 499,771.6    $(89,428.4)      $ 410,343.2
  (Less: Earned Revenues)                          89,428.4       (32,478.6)
                                  (121,907.0)
  Net Program Costs              $ 377,864.6    $       (0.0)    $ 377,864.6


* U.S. Army Corps of Engineers




                                  33
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                           34
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Government Reform
 House Subcommittee on Government Management, Information, and Technology,
   Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform




                                      35
Under Secretary of Defense (Comptroller)
Comments




                    36
37
38
39
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.


  F. Jay Lane
  Salvatore G. Guli
  Richard B. Bird
  Jack L. Armstrong
  Leslie M. Barnes
  Kathleen A. Furey
